TCM Bank, N.A. Secured Credit Card Cardholder Agreement - Effective: February 17, 2020
This Secured Credit Card Cardholder Agreement (“Agreement”), the card carrier we send with your credit card, the
accompanying sheet entitled “TCM Bank, N.A. Account Opening Disclosures” and the application you signed or otherwise
submitted (collectively, the “Cardholder Documents”) govern the use of your TCM Bank, N.A. Visa® or MasterCard® credit
card (“Card”) account (your “Account”). All the Cardholder Documents are part of and are incorporated into this Agreement.
By signing (including by any electronic or digital signature) your Card, your Account application, any accepted sales slip,
or any other document in connection with the use of your Card or your Account, or by using your Card or allowing someone
else to use it, you agree to the terms and conditions of this Agreement. Please read this Agreement thoroughly and retain a
copy for your records. As used in this Agreement: we, us, our, and similar terms mean TCM Bank, N.A., and all its respective
parents, wholly or majority owned subsidiaries, affiliates, predecessors, successors, assigns, employees, officers, and
directors (collectively, “TCM”). The words you, yours, and Cardholder mean all persons responsible for complying with
this Agreement, including the applicant and any co-applicant who applied to open the Account and the person to whom we
address Account statements. As the person(s) that asked us to open the Account, you are the “Primary Cardholder,” and
you will have an Account with us. You may request that we issue a Card to another person and, if we do, that person will
be called an “Authorized User” on your Account and the Card will be an “Additional Card.” The Cards are issued by us,
even if the name of another institution appears on the Cards. Visa is a registered trademark of Visa International Service
Association and is used by us pursuant to license. MasterCard is a registered trademark of MasterCard International
Incorporated and is used by us pursuant to license.
This Agreement is governed by the substantive laws (excluding laws of conflict) and regulations of the United
States (“federal law”) and the laws and regulations of the State of Florida no matter where the Account is used.
We reserve all our rights with respect to the preemptive effect of any applicable federal laws and/or regulations.
This Agreement is entered between us and you in Florida. We make decisions about granting credit to you from,
extend credit to you under this Agreement from, and accept payments from you in, Florida.
Security Interest: We will have a security interest in your Secured Credit Card Deposit Account with us.
This Account is secured by and you grant us a security interest in the Secured Credit Card Deposit Account you have established
with us which is governed by the Secured Credit Card Deposit Account Agreement between you and us (“Secured Deposit
Account Agreement”). The Secured Deposit Account Agreement is hereby incorporated and made part of this Agreement.
Use of the Card. You may use the Card to obtain legal goods and services from any person or establishment accepting the
Card (“Purchase(s)”), to obtain non-purchase related transactions (“Cash Advance(s)”) from us up to the applicable limits on
your Account and to take advantage of other features of the Card. As used in this Agreement, the term “Purchases” will include
Purchases and Balance Transfers (a “Balance Transfer” is transfer of funds to another creditor initiated by us at your request
which may include transaction fees and adjustments associated with any Balance Transfer), and the term “Cash Advances”
will include; a) Cash Advances, b) Convenience Checks (as used in this Agreement, the term “Convenience Check” means
any check we provide to you for accessing your Account to obtain credit), c) obtaining funds through an automated teller
machine (ATM) or a financial institution, d) purchasing a wire transfer, money order, foreign currency, travelers cheques,
savings bonds, lottery tickets, gift cards or stored value load, e) purchase of cryptocurrency, including but not limited to Bitcoin,
or f) engaging in another similar transaction. As used in this Agreement, all amounts charged to an Account, which include
the Annual Fee (as described below), if any, or other fees, and any Finance Charges imposed under the Agreement, will be

1

called “Charges”. Charges include (but are not limited to) any Purchase, Balance Transfer, Cash Advance or Convenience
Check in which you have evidenced an intent to incur a Charge, regardless of whether you have signed a charge form.
You are responsible for paying all amounts charged to the Account. You agree to notify us at once if the Card or any
Convenience Checks we may issue on your Account are lost or stolen, or if you suspect they are being used without your
permission. You agree to take reasonable steps to prevent the unauthorized use of any Card, Convenience Checks and your
Account. You agree to sign the Card immediately when you receive it. You agree to use the Account (including any Card and
Convenience Checks) only for legal purchases of goods and services and not to use the Account, Cards and/or Convenience
Checks for any unlawful purposes, including the purchase of goods or services prohibited by applicable laws or regulations.
You expressly agree that Cards may not be used for gambling or wagering purposes, whether online or otherwise, even if
otherwise permitted by applicable law. If you or any Authorized Users do use your Cards for unlawful purposes, including,
without limitation, illegal internet gambling, and/or for any purposes which we do not permit, you will be in default under this
Agreement and we may terminate your Account, but you still will be liable to us for all Charges relating to such transactions
and all other transactions on your Account. You should not use the Card after the expiration date. You must immediately return
the Card to us or destroy it if we ask you to. If you want to cancel your Account or any Cards, you must contact us and destroy
the applicable Card. We reserve the right to deny authorization for any requested Charge even if the transaction would not
cause you to exceed your credit limit or your Account is not in default. You agree to use your Account for personal, family
or household purposes and not to use your Account for business or commercial purposes.
We are not responsible for any losses you may incur if we do not authorize a requested Charge or if anyone refuses to accept
your Card or any Convenience Check for any reason. You may obtain Cash Advances and Balance Transfers as permitted for
your Account as described in this Agreement, but you may not use these to pay any amount you owe us or any of our affiliates
or agents. We are not liable for any losses that may result when our services are unavailable due to reasons beyond our control.
Credit Line Maintenance: You agree to provide financial statements on the Cardholder as requested by us. Failure to do so
may result in the suspension of charging privileges on your Account. You also agree to provide us with any information
required by law or regulation, including information that may be required under the USA Patriot Act.
Transfers: You may not transfer your Account or any of your rights and obligations under this Agreement. Any such
transfer will be void.
Additional Cards: You, as the Primary Cardholder, are responsible for all Charges on your Account. Any Additional Cards
may be canceled by you or by us. You agree to make sure that any Additional Cards issued on your Account are used in
a manner consistent with this Agreement. You also authorize us to discuss your Account with Authorized Users in the
course of maintaining your Account. We may, in our sole discretion, pursue Authorized Users for payment of their Charges if
you fail to pay those Charges. If you want to end an Authorized User's privilege to use your Account, you must recover and
destroy that person's Card. If you do not, you will continue to be liable for any charges made, even if you have advised us
of your wish to cancel that person’s Card privileges, unless you tell us to cancel all Cards and establish a new Account for
you or you report the Card as lost or stolen. You agree to notify each Authorized User that they are subject to all applicable
sections of this Agreement.
Credit Limit: The Credit Limit is the maximum amount of credit available on your Account. Your Credit Limit is equal
to the amount deposited in your Secured Credit Card Deposit Account which serves as collateral for your obligations under
this Account. We have provided you a separate written notice stating applicable credit limit(s) on your Account. In addition,
your monthly statements will show the amount of credit available to you for Purchases, Balance Transfers and Cash
2

Advances and the ANNUAL PERCENTAGE RATES (APRs) for Purchases, Balance Transfers and Cash Advances,
as of the monthly statement date. You agree not to use the Account in any way that would make the unpaid balance of your
Account exceed the applicable credit limit. We are not obligated to honor any Card transaction that would cause the unpaid
balance of your Account to exceed applicable credit limits (“Over Limit Transactions”). However, if we, in our discretion,
honor any Over Limit Transaction, you agree to promptly pay the amount more than the applicable credit limit. At our
discretion, and subject to applicable law, we may increase, reduce your Credit Limit or the Balance Transfer or Cash Advance
portions of your Credit Limit, or cancel your Credit Limit, at any time. A change to your Credit Limit or any portion thereof
does not affect your obligation to pay us.
Renewal of Cards and Cancellation: The Card will be valid until the expiration date embossed on the Card. We will issue
you renewal or replacement Cards before the current Card expires unless your Account is cancelled by you or by us or your
Account is not in Good Standing at the time of such expiration. Your Account is in “Good Standing” if it is an open and
active account with no holds or blocks present on the account.
Liability for Charges and Finance Charges: You may use the Card to obtain Purchases, Balance Transfers and Cash
Advances up to the applicable credit limits on your Account. You are liable to us for all Charges you make, and all Charges
made by holders of any Cards and Additional Cards issued on your Account. Authorized Users using a Primary Cardholder’s
Account are not liable for obligations incurred by the Primary Cardholder, or by other Authorized Users. However, by each
use of an Additional Card, the Authorized User indicates his or her agreement to pay us for that transaction and related
Charges if you fail or refuse to pay that obligation.
Payments: Each month’s Total Minimum Payment (as defined below) for your Account is due by the payment due date
(“Payment Due Date” is the date shown on your monthly statement by which your payment is due) shown on your monthly
statement. The Total Minimum Payment will include any amount past due and over the applicable credit limit. You must
pay us in U.S. currency, with a draft or a check drawn on a U.S. bank and payable in U.S. dollars, with a negotiable
instrument payable in U.S. dollars and clearable through the U.S. banking system, or with a telephonic or electronic payment
authorization in U.S. funds. You acknowledge that we process most payment checks electronically. We use the information
on your check to create an electronic funds transfer. Each time you send a check, you authorize us to make a one-time
electronic funds transfer. You also authorize us to process your check as a check or paper draft, as necessary. Funds may be
withdrawn from your Account as soon as the same day we receive your payment. You will not receive your cancelled check
because we are required to destroy it. We will retain an electronic copy. If we decide to accept a payment made in some
other form, your payment will not be credited until it is converted into one of the forms described herein. We may charge
you any costs we incur in converting your payment.
If we do not receive payment by the Payment Due Date or if a payment is returned to us unpaid, we may charge your Account
a Late Payment Fee or a Returned Payment Fee (as described below) to cover collection costs on that payment in addition
to any other applicable fees. All payments, if received by us prior to 5:00 pm Eastern Standard Time, shall be considered
made on the date received at the payment address, as shown on your monthly statement. If payment is received after 5:00
pm Eastern Standard Time on any date, payment will be deemed to have been received the following banking day. We may
accept late payments, partial payments, or any payments marked as being payment in full or as being a settlement of any
dispute without losing any of our rights under this Agreement or under the law. Our acceptance of such payments does not
mean we agree to change this Agreement in any way. You agree to pay all court costs plus all reasonable attorney’s fees, if
we must refer your Account to any attorney for collection, subject to the law of your jurisdiction.

3

Availability Hold: We may, at our discretion, withhold a portion of the available credit on your Account up to the amount
of any payments to assure that the payment is honored.
Monthly Statement – Total Minimum Payment: The Total Minimum Payment required is the new balance shown on your
monthly billing statement if the amount is equal to or less than $15.00. Otherwise, it is the greater of: (A) 3.0% of the
new balance for such month (“New Balance”) (rounded up to the nearest dollar), (B) $15.00, or (C) 1% of the New Balance
(rounded up to the nearest dollar) plus any unpaid FINANCE CHARGES and unpaid fees. If applicable, the Total Minimum
Payment will include any amount over the credit limit and any amount past due. You may pay more than the Total Minimum
Payment or you may pay the total New Balance at any time. Your Total Minimum Payment will be applied in any order at our
discretion. Payments in excess of the Total Minimum Payment will be applied to balances with the highest APR first and then
to lower rate balances in descending order of APRs.
How to Avoid Paying Interest:
Grace Period: A grace period is the period between the end of a billing cycle and the date your payment is due during which
credit extended may be repaid without incurring FINANCE CHARGES. During this period, you may not be charged interest
as long as you pay your balance in full by the due date.
Grace Period for Purchases (including Balance Transfers): Your Payment Due Date is at least 23 days after the close of
each billing cycle. We will not charge you any interest on Purchases (including Balance Transfers) if you pay your entire
balance in full by the due date of each month. If you do not, you will accrue FINANCE CHARGES on all Purchases from
the date the Purchase is posted to your Account. If you are not carrying a balance, then you can avoid paying interest on new
Purchases (including Balance Transfers) if you pay your balance in full by the Payment Due Date. If you do not pay your
balance in full by the Payment Due Date, you will be charged interest on the unpaid portion of the balance. You will also be
charged interest on Purchases in the new billing cycle starting on the date each Purchase is made.
Grace Period for Cash Advances (including Convenience Checks and other charges defined on page 1): On Cash
Advances, there is no grace period, and FINANCE CHARGES on Cash Advances are always assessed from the day of the
Cash Advance transaction or the first day of the billing cycle in which the Cash Advance is posted to your Account, whichever
is later, until the day we receive payment in full of all outstanding Cash Advances.
Calculation of Monthly Periodic Rate:
A. The “Monthly Periodic Rate” for Purchases, Balance Transfers and Cash Advances for each billing cycle is 1/12th of the
ANNUAL PERCENTAGE RATE for Purchases, Balance Transfers or Cash Advances, respectively, in effect for that
billing cycle, rounded to the nearest ten thousandth of a percentage point.
B. The Account Opening Disclosure states the ANNUAL PERCENTAGE RATES applicable to your Account, subject to
paragraph C below. Please call us at (800) 883-0131 or write to us at TCM Bank, P.O. Box 31537, Tampa, FL 33631, to
receive an additional copy of the Account Opening Disclosures or to learn the most current ANNUAL PERCENTAGE
RATES.
C. For purposes of this Agreement, the Prime Rate used to determine your ANNUAL PERCENTAGE RATES for a billing
cycle is the highest Prime Rate listed in The Wall Street Journal on the last business day of the calendar month prior to your
statement closing date. Your APR will increase if the Prime Rate increases. Your minimum payment or number of payments
will increase if your APR increases. In the event that The Wall Street Journal ceases to be published or ceases to publish the
4

Prime Rate, we may refer to the Prime Rate published in any other newspaper of general circulation in New York, New York,
or we may substitute a similar reference rate at our sole discretion. Subject to applicable law, any balances transferred from
another account to this Account shall be governed by the terms and conditions of this Agreement.
Finance Charge Calculation Method and Computation of Average Daily Balance Subject to Finance Charge.
How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new Purchases).”
• We calculate periodic rate FINANCE CHARGES separately for each type of balance (e.g., Purchases, Balance Transfers,
and Cash Advances). For a billing cycle, we figure a portion of the FINANCE CHARGE on your Account by multiplying
the Monthly Periodic Rate times the respective Average Daily Balances (including current transactions). There is a $1.00
minimum FINANCE CHARGE.
“Average Daily Balances” means the following:
• To get the Average Daily Balance for Purchases and Balance Transfers, we take the beginning balance of Purchases and
Balance Transfers on your Account each day, add any new Purchases and Balance Transfers, and subtract any payments or
credits, non-accruing fees, and unpaid FINANCE CHARGES during the billing cycle. This gives us the daily balance for
Purchases and Balance Transfers. Then, we add up all the daily balances of Purchases and Balance Transfers for the billing
cycle and divide the total by the number of days in the billing cycle. This gives us the Average Daily Balance for Purchases.
• To get the Average Daily Balance for Cash Advances, we take the beginning balance of Cash Advances on your Account
each day, add any new Cash Advances, and subtract any payments or, fees, and unpaid FINANCE CHARGES during the
billing cycle. This gives us the daily balance for Cash Advances. Then, we add up all the daily balances of Cash Advances
for the billing cycle and divide the total by the number of days in the billing cycle. This gives us the Average Daily Balance
for Cash Advances.


Credits received from merchants are effective as of the posting date.



For FINANCE CHARGE calculation purposes, the billing cycle begins on the day after the Statement/Closing date
of the previous billing cycle, and includes the Statement/Closing Date of the current billing cycle. The number of
days in the billing cycle may vary.

Fees: We may charge the following fees, subject to applicable law:
1. ANNUAL FEE: You agree to pay any Annual Fee shown on the Account Opening Disclosure accompanying this
Agreement in the amount shown.
2. RETURNED PAYMENT: You agree to pay a fee of up to $40 for each returned payment. The returned payment fee
will not exceed the Total Minimum Payment and will never exceed the amount of the payment being returned.
3. STOP PAYMENT ORDERS: If you request us to stop payment on a Convenience Check drawn on your Account, you
agree to pay a fee of $29.

5

4. LATE PAYMENT FEE: You agree to pay a late fee of up to $40 if we do not receive your minimum payment by the
Payment Due Date each month. In no event will your late fee exceed the Total Minimum Payment. You will only be charged
one late payment fee for any monthly Total Minimum Payment which is not paid by the Payment Due Date shown on your
statement.
5. RESEARCH FEE: You agree to pay $3 for each photocopy of a sales slip you request and $4 for each duplicate copy of a
monthly statement you request. However, we will not impose these fees if you request such items in connection with a billing
error dispute which you have notified us of in writing.
6. EXPEDITED PAYMENT FEE: You agree to pay $10 for each payment initiated via telephone and assisted by a customer
service representative for same day payments.
7. TRANSACTION FEES:
Transaction Fee for Cash Advances: For each Cash Advance, we add an additional Cash Advance Fee of either $5 or 3%
of the U.S. dollar amount of the Cash Advance, whichever is greater. There is no maximum Cash Advance Fee. The Cash
Advance Fee is a FINANCE CHARGE. This Cash Advance Fee may cause the ANNUAL PERCENTAGE RATE on
the billing statement on which the Cash Advance first appears to increase.
Transaction Fee for Charges Made in Foreign Countries: If you incur a Charge in a foreign currency or foreign countries,
it may be converted into U.S. dollars. If the foreign currency is converted into U.S. dollars, the exchange rate used to convert
the currency used in an international transaction into the billing currency shall, in each instance, be either a rate selected by
Visa® or MasterCard®. The conversion may occur after the transaction date and the conversion rate may differ from the
rate of exchange in effect at the time of the transaction. You agree to pay the converted amount to us in U.S. dollars. In
addition, you agree to pay a Foreign Transaction Fee of 1.0% of the U.S. dollar amount of each transaction made in a foreign
currency, in U.S. dollars outside the U.S., or (whether in a foreign currency or in U.S. dollars) with a foreign merchant. The
Foreign Transaction Fee is a FINANCE CHARGE. This Foreign Transaction Fee may cause the ANNUAL
PERCENTAGE RATE on the billing statement on which the Charge made in a foreign currency first appears to increase.
Transaction Fee for Balance Transfers: For each Balance Transfer, we will add a Balance Transfer Fee of the greater of
$5 or 3% of the U.S. dollar amount of the Balance Transfer. There is no maximum Balance Transfer Fee. The Balance
Transfer Fee is a FINANCE CHARGE. The Balance Transfer Fee may cause the ANNUAL PERCENTAGE RATE on
the billing statement on which the Balance Transfer first appears to increase.
Default: Subject to applicable law, we may consider your Account to be in default at any time if you fail to pay us any payment
when it is due; if you attempt to exceed or exceed the applicable credit limits on your Account; if your payment is returned, rejected,
or not paid by your bank or financial institution or if your payment cannot be processed; if you die or become legally incapacitated;
if any government authority takes action that TCM believes adversely affects your financial condition or ability to repay the debt or
we have any other reason to believe you may not be able to meet your obligations to us; if we determine that you have made any
false, incomplete or misleading statement to us; or if you breach any other promise or obligation under this Agreement or any other
agreement with us or our affiliates. Upon your default and subject to any limitations or requirements of applicable law, you agree to
pay all other reasonable costs, including reasonable attorney’s fees, incurred by us in collecting the balance due, including FINANCE
CHARGES, if any, whether suit is brought against you, and in protecting ourselves from any harm that we may suffer as a result of

6

your default. We may also, upon your default, and subject to applicable law, declare the entire amount of your obligations to us
immediately due and payable and suspend or cancel your Account privileges.
Delinquency Assessments: Your Account may be considered delinquent if you fail to pay us at least the Total Minimum Payment
due by the Payment Due Date shown on each monthly statement. If your Account remains delinquent at the statement closing date,
subject to applicable law, we will add a Late Payment Fee as described above.
Suspension/Cancellation: In addition to any of the actions we may take under this Agreement, we may suspend or cancel your
Account privileges at our sole option, subject to applicable law, at any time with or without cause and without giving you notice,
including but not limited to a situation in which (1) you cease to be an account holder in good standing with respect to any other
accounts you may have with TCM, (2) you are in default, or (3) you stop using your Account. Any such action on our part will not
cancel your obligations to pay us the outstanding balance, FINANCE CHARGES, and other charges due on your Account under
the terms of the Agreement in effect at the time of the cancellation or suspension of your Account or as subsequently amended. You
agree to pay us all such obligations despite any suspension or cancellation of your Account.
Rules for Convenience Checks: You may request a stop payment on a Convenience Check by providing us with the access check
number, dollar amount, and payee exactly as they appear on the Convenience Check. Oral and written stop payment requests on a
Convenience Check are effective for six months from the day that we place the stop payment.
You may not issue a postdated Convenience Check on your Account. If you do postdate a Convenience Check, we may elect to
honor it upon presentment or return it unpaid to the person that presented it to us for payment, without in either case waiting for the
date shown on the Convenience Check. We are not liable to you for any loss or expense arising out of the action we elect to take.
Waiver: Our failure to exercise any of our rights under this Agreement, or our waiver of our rights on any one occasion, shall
not constitute a waiver of such rights on any other occasion.
Consumer Reports: You authorize us and our affiliates to make whatever credit investigations we deem appropriate and to
obtain and exchange any information we may receive from consumer reports, consumer reporting agencies and other sources.
We may ask consumer reporting agencies for consumer reports of your credit history. Upon request and as otherwise required
by applicable law, we will tell you whether a consumer report was requested and the name and address of the agency that
furnished it. We may report information about your account to credit bureaus. Late payments, missed payments, or
other defaults on your account may be reflected in your credit report. If we determine that your Account is past due,
adverse credit information may also appear on the consumer reports of any Authorized Users on your Account.
If you believe we have furnished inaccurate or incomplete information about you or your Account to a credit reporting agency,
write to us at TCM Bank, N.A., P.O. Box 31537, Tampa, FL 33633-3631. Please include your name, address, home phone
number and Account number, and explain what you believe is inaccurate or incomplete.
Telephone Monitoring: From time to time, we may monitor and record telephone calls between you or Authorized Users and
us for reasonable business purposes including to assure the quality of our customer service.
Consent to Receive Communications: Unless expressly prohibited by law, you expressly agree and consent that we may
contact you using an automatic telephone dialing system, pre-recorded voice, voicemail or messaging service, text messaging,
email messaging or otherwise and leave you voice, prerecorded or artificial voice messages or send you text messages, emails
7

or other electronic messages for any purposes, including the servicing and/or collecting of your account, to offer you products
and services that may be of interest to you, and for any other informational or marketing purposes. You agree that we may
contact you at any telephone number, including, but not limited to your home telephone number, and cellular telephone
number; any email address; or using any other contact information that you provide to us at any time whether in connection
with the opening of your account or thereafter. You agree to notify us promptly if any of your contact information changes and
only give us telephone numbers and email addresses that belong to you and at which you may be contacted.
You agree that this consent is valid regardless of whether the number we use to contact you is assigned to any service for which
you may be charged for the call, text message(s), or other communications.
You agree that you are not required to provide this consent as a condition to receiving any product or service from us and
acknowledge that you have the right to revoke this consent or change or remove any of the telephone numbers or email
addresses at any time by contacting us at 1-800-883-0131 or by any other reasonable means.
Benefits and Services: We reserve the right to add, modify, or delete any benefit or service offered with the Card at any time
without notice to you unless otherwise required by applicable law.
Change of Billing Address – Notices: You must notify us immediately of any change in your billing address. Any notice
given by us shall be deemed to be given when deposited in the United States Mail, postage prepaid, addressed to you at the
latest billing address shown on our records.
Change of Rates, Fees, Terms – Assignment: We may assign or transfer Card accounts, including, your Account, this
Agreement or our rights and obligations under your Account or this Agreement, to our affiliates or to some other financial
institution at any time. Subject to applicable law, the person or entity to whom we make any such sale, assignment or transfer
is entitled to all our rights under this Agreement, to the extent sold, assigned or transferred. We may also change the rates,
fees, and terms of this Agreement at any time, in accordance with applicable law. We will notify you of changes if we are
required to do so by law, and you may be given the opportunity to reject those changes to the extent required by law or
otherwise in our discretion. If you choose not to accept those changes, you may terminate this Agreement by notifying us in
writing. However, your Account will be closed, and you will remain responsible for all Charges made before you terminated
the Agreement.
Revocation and Voluntary Cancellation: We can revoke your right to use the Card at any time. We can do this whether
you have violated this Agreement and without giving you notice. If we revoke the Card, you must return the Card to us if
we request. Also, if a merchant that accepts cards asks you to surrender an expired or revoked Card, you must do so. You
may not use the Card after it has expired or after it has been revoked. If you ask us to cancel your Account, but you continue
to use your Account after the date of cancellation, we will consider such use as your request for reinstatement of your
Account. We may then reinstate your Account and bill you accordingly.
Severability: If any part of this Agreement conflicts with applicable law, that law will control, and this Agreement will be
considered changed to the extent necessary to comply with that law. If any part of this Agreement is determined by a court of
valid jurisdiction to be invalid, the remainder of this Agreement will remain in effect.
JURY TRIAL WAIVER. THE PARTIES HEREBY WAIVE ANY RIGHT TO TRIAL BY JURY.

8

Interest Rate Limitation. If, at any time and for any reason whatsoever, the interest rate payment hereunder shall exceed the
maximum rate of interest permitted to be charged by TCM under applicable law, such interest rate shall be reduced
automatically to the maximum rate of interest permitted to be charged under applicable law. Without limiting the foregoing,
you will not be held liable for fees and charges greater than any maximum allowed under applicable law.
Your Rights Under the Military Lending Act: Federal law provides important protections to members of the Armed Forces
and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit
card account). To hear the Military Lending Act Information, call 1-800-883-0131.
Your Billing Rights – Keep This Document for Future Use. This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement. If you think there is an error on your statement, write to us at: TCM
Bank, N.A., Customer Service, P.O. Box 31481, Tampa, FL 33631-3481.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automatic payment is scheduled, if you want to stop payment on the amount you think
is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
9

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
•If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent
if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within ten (10) days telling us that you
still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good
faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check
that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at: TCM Bank, N.A.,
Customer Service, P.O. Box 31481, Tampa, FL 33631-3481.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
State Laws Require the Following Notices: California Residents: After credit approval, each applicant shall have the right
to use this account to the extent of any limit set by the creditor and each applicant may be liable for all amounts extended
under this account to any joint applicant. Married Wisconsin Residents: Your signature confirms that this credit obligation
is being incurred in the interest of your marriage or family. If the credit card for which you are applying is granted, you will
notify TCM if you have a spouse who needs to review notification that credit has been extended to you.
Authorization: You expressly authorize your wireless carrier (AT&T, Sprint, T-Mobile, US Cellular, Verizon, or any other
branded wireless operator) to disclose to TCM and its third-party service providers your mobile number, network status,
customer type, customer’s role, billing type, mobile device identifiers (IMSI and IMEI) and other subscriber status and
device details, if available, solely to verify your identity and prevent fraud for the duration of the relationship.
10

Privacy of Information: Please refer to our Privacy Policy for information about TCM’s privacy practices.
Unauthorized Use of Your Account: Please notify us immediately at 1-800-883-0131 of the loss or theft of your Card or
Convenience Checks or of any other possible unauthorized use of your Account.

11

